                                      A MESSAGE FROM THE
                                       INSPECTOR GENERAL
This Semiannual Report to Congress highlights the activities of the U.S. Nuclear
Regulatory Commission (NRC) Office of the Inspector General (OIG) for the
6-month period ending March 31, 2006.

Our work reflects the legislative mandate of the Inspector
General Act to identify fraud, waste, and abuse and to
recommend appropriate corrective actions. The audits
and investigations highlighted in this report demonstrate
our commitment to improving the NRC’s programs and
operations and protecting their integrity. During this
reporting period, we continued to assist the Commission’s
management in addressing its mission-related priorities.

Our office completed 11 performance and financial audit
reports on NRC’s programs and operations making
recommendations to NRC for program improvement.
In addition, OIG completed 25 investigations and 1 Event
Inquiry which produced $16,938 in recoveries. A total of 30 cases were referred
to the Department of Justice and 27 were forwarded to NRC management for
action during this reporting period.

OIG remains committed to being an instrument for positive change at the NRC.
This goal is achieved through the diligent work of all OIG employees. In addition
to the results demonstrated through our various audits and investigations, this
year we were the proud recipients of two group “Award for Excellence” honors
from the President’s Council on Integrity and Efficiency.

Finally, I would like to express my appreciation for the collaborative work
between my staff and agency managers to address OIG findings and implement
the recommendations made by my office. I look forward to continuing
this work as we strive to accomplish our common goal of ensuring the
effectiveness, efficiency, and integrity of NRC programs and operations.



Hubert T. Bell
Inspector General


                                                                                                
                                                                   October 1, 2005 – March 31, 2006
ii
NRC OIG Semiannual Report
                                                                                                CONTENTS
Highlights ...................................................................................................................v
OIG Organization and Activities . ..........................................................................1
	     NRC’s Mission ....................................................................................................1
	     OIG Mission and Strategies ...............................................................................2
		          Inspector General History ...........................................................................2
		          OIG Mission ..................................................................................................2
		          Audit Program ...............................................................................................3
		          Investigative Program ...................................................................................4
	     Management Challenges ....................................................................................6
	     OIG General Counsel Activities . ......................................................................7
		          Regulatory Review ........................................................................................7
	     Other Activities .................................................................................................10
		          NRG OIG Receives PCIE Awards for Excellence ...................................10
Audits .......................................................................................................................13
	     Audit Summaries . .............................................................................................13
	     Audits In Progress .............................................................................................20
Investigations ...........................................................................................................26
	     Investigative Case Summaries .........................................................................26
Statistical Summary of OIG Accomplishments .................................................31
	     Investigative Statistics .......................................................................................31
	     Audit Listings . ...................................................................................................33
	     Audit Tables . ......................................................................................................34
Abbreviations and Acronyms . ..............................................................................38
Reporting Requirements ........................................................................................40



                                                                                                                                   iii
                                                                                           October 1, 2005 – March 31, 2006
iv
NRC OIG Semiannual Report
                                                                   HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 The Chief Financial Officers Act requires OIG annually to audit NRC’s
   principal financial statements. An independent public accounting firm,
   under contract to OIG, conducted the audit with OIG oversight.

•	 Video news releases are complete audiovisual presentations produced
   by non-news organizations that are intended to be indistinguishable from
   traditional television news reports. OIG performed an audit to determine
   whether NRC has implemented measures to comply with Federal law
   concerning the development of video news releases.

•	 The Integrated Personnel Security System (IPSS) supports NRC’s personnel
   and facility security programs, such as badge management, classified visit
   tracking, personnel security tracking, and drug testing management. OIG
   performed an audit to determine if IPSS meets its required operational
   capabilities.

•	 OIG performed a followup audit of NRC’s decommissioning fund program to
   identify opportunities for program improvement and evaluate implementation
   of recommendations made in a February 2000 OIG audit report. NRC’s over-
   sight of licensee decommissioning funding assurance is intended to provide
   reasonable assurance that there will be sufficient funds to safely decommission
   the nuclear reactors.

•	 OIG engaged an independent contractor to conduct a survey of NRC’s work-
   force to assess the agency’s safety culture and climate. The overall objectives
   were to (1) compare the results from this survey with two previous surveys
   conducted in 1998 and 2002, and (2) compare the results to Government and
   national benchmarks.




                                                                                                
                                                                    October 1, 2005 – March 31, 2006
                 •	 Pursuant to NRC’s post September 11, 2001, comprehensive review of the
                    agency’s safeguards and security program, the NRC established the Office of
                    Nuclear Security and Incident Response (NSIR). NSIR’s mission is to pre-
                    vent nuclear security incidents and to respond to security and safety events.
                    Since its inception, NSIR has been involved in many substantive and incident
                    response initiatives. OIG performed an audit to evaluate NSIR operations.

                 •	 The events of September 11, 2001, heightened the Nation’s concerns that the
                    loss or theft of radioactive material could lead to malicious use. Because NRC
                    is planning to use a proposed National Source Tracking System to track all
                    phases of the life cycle of byproduct material, OIG conducted an audit that
                    focused on the development of that system.

                 •	 A radiological dispersal device, also known as a dirty bomb, is a conventional
                    explosive that incorporates radioactive material and releases it on detona-
                    tion. The major purpose of a dirty bomb is to create terror and disruption,
                    not to cause death by radiation. OIG conducted audit work to determine if
                    NRC ensures, through its license application and review process, that only
                    legitimate entities receive NRC byproduct material licenses.

                 INVESTIGATIONS
                 •	 OIG completed an investigation involving NRC’s practice of allowing States
                    to regulate NRC licensees in areas pre-empted by Congress to the Federal
                    Government by establishing radiation dose release limits for byproduct,
                    source, or special nuclear material that differ from the standards set by
                    the NRC. OIG became aware of this issue following the application by the
                    governor of Minnesota for Agreement State status.

                 •	 OIG conducted an investigation based on information that the NRC Division
                    of Financial Services staff sent a payment for over $1 million to the wrong
                    NRC contractor. During the investigation, OIG learned that NRC manage-
                    ment had not reported the error to the NRC’s independent auditors, despite
                    the possible effect on the financial statement review process.

                 •	 OIG conducted an investigation into an allegation that a manager in NRC’s
                    Office of the Chief Financial Officer (OCFO) participated in a golf outing


vi
NRC OIG Semiannual Report
   at an exclusive, private golf course with partners of a financial management
   services company and showed favoritism toward this company while the firm
   was attempting to obtain a financial management consulting services contract
   with NRC.

•	 OIG conducted an investigation based on information aired in an October
   2005 American Broadcasting Company (ABC) television episode of Primetime
   which reported that NRC oversight of security measures in place at research
   and test reactor facilities licensed by NRC was inadequate.

•	 OIG conducted an investigation into the actions of a foreign assignee at NRC
   headquarters who connected his computer to the NRC computer network in
   violation of NRC computer security requirements without the knowledge of
   NRC computer security personnel.

•	 OIG conducted an investigation into a concern that the NRC had inappro-
   priately issued a license to a firm to distribute weapon-sights con-
   taining radioactive material.




                                                                                         vii
                                                                 October 1, 2005 – March 31, 2006
viii
NRC OIG Semiannual Report
   OIG ORGANIZATION AND ACTIVITIES
NRC’S MISSION
The U.S. Nuclear Regulatory Commission (NRC) was formed in 1975 to regu-
late the various commercial and institutional uses of nuclear energy, including
power plants. The agency succeeded the Atomic Energy Commission,
which previously had responsibility for both developing and regulat-
ing nuclear activities.                                                 NRC places a
NRC’s mission is to regulate the Nation’s civilian use of byproduct,         high priority
source, and special nuclear materials to ensure adequate protection of
public health and safety, promote the common defense and security,           on keeping the
and protect the environment. NRC’s regulatory mission covers three
main areas:                                                                  public informed
•	 Reactors - Commercial reactors for generating electric power              of its work.
   and research and test reactors used for research, testing, and
   training.

•	 Materials - Uses of nuclear materials in medical, industrial, and academic
   settings and facilities that produce nuclear fuel.

•	 Waste - Transportation, storage, and disposal of nuclear materials and waste,
   and decommissioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses
for nuclear facilities and users of nuclear materials, and (3) inspect facilities and
users of nuclear materials to ensure compliance with the requirements. These
regulatory functions relate both to nuclear power plants and other uses of nuclear
materials – like nuclear medicine programs at hospitals, academic activities at
educational institutions, research work, and such industrial applications as gauges
and testing equipment.

NRC places a high priority on keeping the public informed of its work. The agency
maintains a current Web site and a public document room in Rockville, Maryland
(NRC headquarters) and holds public hearings, public meetings in local areas
and at NRC offices, and discussions with individuals and organizations.

                                                                                                  
                                                                      October 1, 2005 – March 31, 2006
                 OIG MISSION AND STRATEGIES
                 Inspector General History

                 In the 1970s, Government scandals, oil shortages, and stories of corruption
                 covered by newspapers and television and radio stations took a toll on the
                 American public’s faith in its Government. The U.S. Congress knew it had to
                 take action to restore the public’s trust. It had to increase oversight of Federal
                 programs and operations. It had to create a mechanism to evaluate the effective-
                 ness of Government programs. And, it had to provide an independent voice
                 for economy, efficiency, and effectiveness within the Federal Government that
                 would earn and maintain the trust of the American people.

                 In response, President Jimmy Carter in 1978 signed into law the landmark legisla-
                 tion known as the Inspector General Act (IG Act). The IG Act created independent
                 Inspectors General (IGs), who would: protect the integrity of Government;
                 improve program efficiency and effectiveness; prevent and detect fraud, waste,
                 and abuse in Federal agencies; and keep agency heads, Congress, and the American
                 people fully and currently informed of the findings of the IGs’ work.

                 Almost 30 years later, the IG concept is a proven success. The IGs continue to
                 deliver significant benefits to our Nation. Thanks to IG audits and inspections,
                 billions of dollars have been returned to the Federal Government or have been
                 better spent based on recommendations identified through those audits and in-
                 spections. IG investigations have also contributed to the prosecution of thousands
                 of wrongdoers. In addition, the IG concept of good governance, accountability,
                 and monetary recoveries encourages foreign governments to seek our advice, with
                 the goal of replicating the basic IG principles in their own governments.

                 OIG Mission

                 NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
                 with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
                 dently and objectively conduct and supervise audits and investigations relating
                 to NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;
                 and (3) promote economy, efficiency, and effectiveness in NRC programs and
                 operations.



NRC OIG Semiannual Report
OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals which generally align
with NRC’s mission and goals:

1.	 Advance NRC’s efforts to enhance safety and protect the environment.

2.	 Enhance NRC’s efforts to increase security in response to the current
    threat environment.

3.	 Improve the economy, efficiency, and effectiveness of NRC corporate
    management.

Audit Program

The OIG Audit Program covers the management and financial operations,
economy or efficiency with which an organization, program, or function is man-
aged; and program results achieved. For this program, auditors assess the degree
to which an organization complies with laws, regulations, and internal
policies in carrying out programs, and they test program effectiveness as well
as the accuracy and reliability of financial statements. The overall objective of
an audit is to identify ways to enhance agency operations and promote greater
economy and efficiency. Audits comprise four phases:

•	 Survey phase - An initial phase of the audit usually is conducted to gather
   information, without detailed verification, on the agency’s organization, pro-
   grams, activities, and functions. An assessment of vulnerable areas determines
   whether further review is needed.

•	 Verification phase - Detailed information is obtained to verify findings and
   support conclusions and recommendations.



                                                                                               
                                                                   October 1, 2005 – March 31, 2006
                 •	 Reporting phase - The auditors present the information, findings,
                    conclusions, and recommendations that are supported by the evidence
                    gathered during the survey and verification phases. Exit conferences are held
                    with management officials to obtain their views on the issues in the report.
                    Comments from the exit conferences are presented in the published audit
                    report, as appropriate. Formal written agency management comments are
                    included in their entirety as an appendix in the published audit report.

                 •	 Resolution phase - Positive change results from the resolution process in
                    which management takes action to improve operations based on the recom-
                    mendations in the published audit report. Management actions are monitored
                    until final action is taken on all recommendations. When management and
                    OIG cannot agree on the actions needed to correct a problem identified in
                    an audit report, the issue can be taken to the Chairman for resolution.

                 Each September, OIG issues an Annual Plan that summarizes the audits planned
                 for the coming year. Unanticipated high priority issues may arise that generate
                 audits not listed in the Annual Plan. OIG audit staff continually monitor specific
                 issue areas to strengthen OIG’s internal coordination and overall planning process.
                 Under the OIG Issue Area Monitor (IAM) program, staff designated as IAMs
                 are assigned responsibility for keeping abreast of major agency programs and
                 activities. The broad IAM areas address nuclear reactors, nuclear materials, nuclear
                 waste, international programs, security, information management, and financial
                 management and administrative programs.

                 Investigative Program

                 OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
                 NRC includes investigating possible violations of criminal statutes relating
                 to NRC programs and activities, investigating misconduct by NRC employees,
                 interfacing with the Department of Justice on OIG-related criminal matters, and
                 coordinating investigations and other OIG initiatives with Federal, State, and
                 local investigative agencies and other OIGs. Investigations may be initiated as a
                 result of allegations or referrals from private citizens; licensee employees; NRC
                 employees; Congress; other Federal, State, and local law enforcement agencies;
                 OIG audits; the OIG Hotline; and IG initiatives directed at areas bearing a high
                 potential for fraud, waste, and abuse.



NRC OIG Semiannual Report
Because NRC’s mission is to protect the health and safety of the public, one of the
Investigation unit’s main area of focus and use of resources is investigations of
alleged NRC staff misconduct that could adversely impact the agency’s handling
of matters related to health and safety. These investigations typically include
allegations of:

•	 Misconduct by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and
   candidly and to openly seek and consider the public’s input during the
   regulatory process.

•	 Conflict of interest by NRC employees with NRC contractors and licensees
   involving such matters as promises of future employment for favorable or
   inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to iden-
tify specific high-risk areas that are most vulnerable to fraud, waste, and abuse.
A primary focus is electronic-related fraud in the business environment. OIG
is committed to improving the security of this constantly changing electronic
business environment by investigating unauthorized intrusions and computer-
related fraud, and by conducting computer forensic examinations. Other proactive
initiatives focus on determining instances of procurement fraud, theft of property,
Government credit card abuse, and fraud in Federal programs.




                                                                                                
                                                                    October 1, 2005 – March 31, 2006
MANAGEMENT CHALLENGES

        NRC’s Most Serious Management Challenges as of September 30, 2005
Challenge 1                                                Challenge 6
Protection of nuclear material used for civilian purposes. Administration of all aspects of financial management.

Challenge 2                                               Challenge 7
Protection of information.                                Communication with external stakeholders
                                                          throughout NRC regulatory activities.

Challenge 3                                               Challenge 8
Development and implementation of a risk-informed         Intra-agency communication (up, down, and across
and performance-based regulatory approach.                organizational lines).

Challenge 4                                               Challenge 9
Ability to modify regulatory processes to meet a          Managing human capital.
changing environment.

Challenge 5                                                      The challenges are not ranked in any order
Implementation of information resources.                         of importance.





NRC OIG Semiannual Report
OIG GENERAL COUNSEL ACTIVITIES
Regulatory Review

Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
existing and proposed legislation, regulations, and implementing Management
Directives (MD) and policy issues and makes recommendations concerning their
impact on the economy and efficiency of programs and operations administered
by the agency. NRC agency directives that require submission of all draft legisla-
tion, regulations, and policies to OIG facilitate this statutory review.

OIG conducts its regulatory review program by examining agency documents
reflecting proposed regulatory, statutory, and policy actions and measures them
against standards evaluating the potential for fraud, efficiency, and effectiveness.
The review also encompasses issues raised in OIG investigations, audits, and prior
regulatory review commentaries.

In addition, OIG commentaries are used to address issues related to preserving the
independence and integrity of OIG under its statutory precept. These objectives
are met through formal memoranda as well as meetings and discussions.

In order to more effectively track the agency’s response to regulatory review
comments, OIG requests written replies within 90 days, with either a substantive
reply or status of issues raised by OIG.

From October 1, 2005, through March 31, 2006, OIG reviewed more than 245
agency documents, including approximately 100 Commission papers (SECYs)
and 145 Federal Register Notices, regulatory actions, and statutes. The most
significant commentaries are summarized below:

Management Directive (MD) 3.53, NRC Records and Document Management
Program and Associated Handbooks, was an effort to consolidate the agency’s
records management program to facilitate the retrieval of guidance associated
with the lifecycle management guidance, and use of agency records. The volume
of the consolidated material was noted to render it difficult to use. The size of
the consolidated volume also resulted in some inconsistencies in direction and



                                                                                                 
                                                                     October 1, 2005 – March 31, 2006
                 redundancy. OIG also related concerns with the Directive’s process for handling
                 former Commissioners’ documents, and suggested that these be the subject of
                 a separate directive.

                 OIG also reviewed the draft Training and Development Strategic Plan, and found it
                 was generally complete and well constructed. The 5-year goals that were identified
                 were meaningful and substantive so as to support the agency in its effort
                 to maintain and develop a highly skilled workforce. OIG suggested that the agency
                 review the provided goals and associated strategies to determine if they met
                 definitions imposed by the Office of Management and Budget. We also
                 commented that, in some cases, it appears that the goals and related strategies
                 were one and the same. OIG suggested that an additional strategy might be
                 developed to meet with program managers on a semiannual basis concern-
                 ing their programmatic requirements, and/or to use a survey tool to obtain the
                 information to redefine outcome goals. The agency was also urged to examine
                 the proper mix of centralized and decentralized training.

                 OIG reviewed the agency’s revised draft Travel Card Management Plan and
                 found it was generally responsive to comments OIG provided to an earlier draft in
                 November 2005. Comments on the most recent version focused on clarifying the
                 OIG role in processing violations and related that while OIG investigates these
                 matters, it does not compile statistics on the cases or recommended penalties for
                 confirmed misuse.

                 The agency drafted a comprehensive Anti-Harassment Policy and submitted it to
                 OIG for review. The document was well structured and complete. Minor com-
                 ments focused on the role of the Inspector General in these matters, with specific
                 direction on the limitations on Inspector General reporting of allegations to agency
                 personnel and agency reporting requirements to the Inspector General.

                 The agency ethics official forwards matters to OIG for information and for com-
                 ment. During this period, the ethics office revised two directives, MD 7.6, Public
                 and Confidential Financial Disclosure Reports, and MD 7.7, Security Ownership.
                 Both were well written, effective communications. The input from OIG was lim-
                 ited to relating changes in reporting requirements within OIG for application of
                 the Financial Disclosure reports and stock ownership restrictions.




NRC OIG Semiannual Report
MD 8.2, NRC Incident Response Program, had two noted lapses. First, it did not
adequately relate the requirement to notify the OIG when the Incident Response
Program was activated. In addition, it related that the details of one aspect of
the program “will be outlined in a procedure.” OIG noted that this wording and
approach was not adequate.

The agency’s proposed rule on Secure Transfer of Nuclear Material (10 CFR Parts
30, 70, 73 and 110), was initiated to address requirements levied by Section 656
of the Energy Policy Act of 2005, titled, Secure Transfer of Nuclear Materials. This
section covered three main areas: requirements
for a system for manifesting shipments of radioac-
tive materials, requirements that certain persons
involved in such shipments be subject to security
background checks, and provisions for excepting
shipments of certain types of radioactive materi-
als or classes of individuals from the requirements
of Section 656 of the act. OIG comments were
provided in the context of ongoing audit work in
the area of nuclear materials. The first comments
responded to the manifesting requirement that the
Commission shall establish a system to ensure that
materials are accompanied by a manifest describing
the type and amount of materials being transferred
or received. OIG noted that the current rulemaking
package does not provide an analysis supporting General Counsel to the Inspector General,
the agency’s conclusion that already established Maryann L. Grodin, reviewing documents.
requirements are sufficient in a post-9/11 environ-
ment. The other significant remark observed that although the rulemaking does
provide some discussion, there is not a thorough, quantitative, cost-benefit analysis
supporting the exceptions to the requirements.

Finally, OIG reviewed the agency draft Online Acquisition Training Property
Management course. The course was found to provide helpful and relevant
guidance. OIG remarks focused on inclusion of specific direction on compliance
timeframes and protection of data in the disposal process.



                                                                                              
                                                                  October 1, 2005 – March 31, 2006
                    OTHER ACTIVITIES
                    NRC OIG Receives PCIE Awards for Excellence

                    The President’s Council on Integrity and Efficiency (PCIE) and the Executive
                    Council on Integrity and Efficiency (ECIE) recognized two OIG teams in 2005 by
                    awarding them the prestigious Award for Excellence. The first team was recognized
                    for exceptional dedication, professionalism, and accomplishment in investigat-
                                                      ing and reporting failures in NRC’s billing and
                                                      financial statement process for nuclear reactor
                                                      plants licensed by the agency. The team con-
                                                      sisted of members George Mulley, Senior Level
                                                      Assistant for Investigative Operations; Rossana
                                                      Raspa, Investigative Team Leader; James
                                                      Taylor, Special Agent; and Thomas Barth,
                                                      Special Agent.

                                                         The team completed an investigation into an
                                                         allegation that staff in the Division of Finan-
                                                         cial Management (DFM), Office of the Chief
                                                         Financial Officer, failed to report 75 underbilled
                                                         reactor inspection invoice errors totaling $2.4
                                                         million during Fiscal Year (FY) 2003 to OIG
                                                         independent auditors. OIG’s investigation de-
The Financial Crimes Unit receives its 2005 PCIE/ termined that an NRC nuclear reactor licensee
ECIE Award for Excellence plaques. Pictured advised DFM staff that there was a possible
from left to right are : George Mulley, Senior Level $500,000 error in a reactor inspection bill for
Assistant for Investigative Operations; Rossana FY 2003. OIG determined that two DFM
Raspa, Investigative Team Leader; and David C. managers subsequently became aware of the
Lee, Deputy Inspector General. Not pictured are underbilling error for FY 2003 for the reactor
award recipients Thomas Barth, Special Agent and plant licensee. The error indicated an inter-
James Taylor, Special Agent.                             nal control deficiency within the NRC license
                                                         fee billing system. Additionally, the two DFM
                     managers became aware that the staff had reviewed all reactor license fee invoices
                     issued during FY 2003 and identified an additional 74 invoices that underbilled
                     NRC reactor licensees a total of $1.9 million. These DFM managers were also
                     aware that the billing errors indicated an internal control weakness which could

10
                     impact the reliability of NRC’s FY 2003 financial statements.


NRC OIG Semiannual Report
This investigative work directly and indirectly generated numerous results. There
has been renewed focus upon the financial programs operated by NRC that impact
nuclear power plants across the United States. The investigation also led to the
correction of the past NRC financial statements and an increased emphasis on pro-
ducing accurate financial statements
that hold NRC accountable for use of
funds. At the request of the Govern-
ment Accountability Office, OIG also
provided the investigative results to
representatives for use in a response
to Congress regarding concerns with
Federal agency financial statements
errors and restatements.

The second team to be acknowledged
by the PCIE/ECIE was the Nuclear
Power Plant Incident Response Au-
dit Team, which consisted of Russell
Irish, Audit Team Leader; Shyrl Coker,
Audit Manager; Debra Lipkey, Senior
Management Analyst; Yvette Russell, The Incident Response Audit Team receives its 2005 PCIE/
Senior Auditor; and David Ditto, Man- ECIE Award for Excellence plaques. Pictured from left to right
agement Analyst. This audit addressed are: David C. Lee, Deputy Inspector General; Debra Lipkey,
issues that are a top priority for the Senior Management Analyst; Russell Irish, Audit Team Leader;
safety and security of the United States. David Ditto, Management Analyst; Shyrl Coker, Audit
Furthermore, the audit has implica- Manager; and Stephen Dingbaum, Assistant Inspector General
tions for other Federal agencies that for Audits. Not pictured is award recipient Yvette Russell,
must function as first responders to Senior Auditor.
any event that is of operational or terrorist origin. By conducting this review,
the audit team demonstrated that NRC’s nuclear power plant incident response
program was not as robust as the agency believed. Specifically, the auditors found
that (1) NRC’s four regions reacted to and evaluated incidents inconsistently and
this could lead to inadequate responses, (2) incident response training is not
standardized and qualifications for incident response team members are not well
defined possibly resulting in unqualified and untrained staff, and (3) licensees do
not fully understand NRC’s incident response program and, as a result, coordina-
tion may be hampered during an actual incident.

                                                                                            11
                                                                   October 1, 2005 – March 31, 2006
                 Agency officials agreed with the findings and recommendations in the audit
                 report and committed to develop an improvement plan that would address all 17
                 of the report’s recommendations. The audit is expected to result in a more robust
                 incident response program that not only meets traditional operational issues, but
                 also addresses the response needed to answer a potential terrorist threat.




12
NRC OIG Semiannual Report
                                                                                 AUDITS
To help the agency improve its effectiveness and efficiency during this period, OIG
completed 11 financial and performance audits or evaluations that resulted in
numerous recommendations to NRC management.

AUDIT SUMMARIES
Results of the Audit of the Nuclear Regulatory Commission’s Financial
Statements for Fiscal Year 2005

OIG Strategic Goal: Corporate Management

The Chief Financial Officers Act requires OIG annually to audit NRC’s principal
financial statements. In addition, the audit evaluated the effectiveness of the
internal controls over financial reporting and the agency’s compliance with laws
and regulations. An independent public accounting firm, under contract to OIG,
conducted the audit with OIG oversight.

Audit results.

FY 2005 Financial Statements

•	 The auditors expressed an unqualified opinion on the agency’s FY 2005
   financial statements.

FY 2005 Internal Controls

•	 The auditors expressed a qualified opinion on the agency’s internal controls.
   They cited NRC’s Fee Billing System as a continuing material weakness, which
   precludes NRC’s internal controls from providing a reasonable assurance
   that material misstatements in the financial statements will be prevented and
   detected on a timely basis.

•	 The auditors also cited three other reportable conditions, which are significant
   deficiencies in internal control design or operations. Specifically:

	   –	 Monitoring of accounting for internal use software.
	   –	 Information systemwide security controls.
	   –	 Financial controls over disbursements.

                                                                                            13
                                                                    October 1, 2005 – March 31, 2006
                 FY 2005 Compliance with Laws and Regulations

                 •	 The agency continues to be noncompliant with the provisions of OMB Circu-
                    lar A-25, User Charges, regarding the calculation of Title 10 Code of Federal
                    Regulations (CFR), Part 170, hourly rates. The auditors also identified a
                    continuing substantial noncompliance related to the Fee Billing System and
                    a new substantial noncompliance associated with information systemwide
                    security controls. (Addresses Management Challenge #6)

                 Audit of NRC’s Controls Over Video News Releases

                 OIG Strategic Goal: Corporate Management

                 Video news releases are complete audiovisual presentations produced by non-
                 news organizations that are intended to be indistinguishable from traditional
                 television news reports. The objective of this audit was to determine whether
                 NRC has implemented measures to comply with Federal law concerning the
                 development of video news releases. This topic is of particular importance to
                 NRC because of its responsibility under the Energy Reorganization Act of 1974
                 to regulate, but not promote, the civilian use of nuclear materials.

                 Audit results. NRC does not have controls to achieve compliance with Federal
                 regulations concerning the development of video news releases. Specifically,
                 NRC (1) does not have a process to ensure that video news releases include
                 the required agency identifier and (2) has not conducted a sufficient review to
                 determine whether it is in compliance with this requirement.

                 NRC communications officials expressed high ethical standards regarding the
                 need to include an agency identifier within video news releases. According to an
                 Office of Public Affairs official, NRC has never issued a video news release and
                 does not intend to do so in the future. Further, if the agency were ever to produce
                 such a video, the production would be properly identified as to its origin.

                 However, NRC has no process to ensure that, should an office opt to develop a
                 video news release, the product would include the necessary identifier. NRC com-
                 munications officials also acknowledged they are not aware of every audiovisual
                 production that NRC offices produce.


14
NRC OIG Semiannual Report
As a result, NRC risks diminished public confidence by producing an inappropri-
ate video news release that, unmarked, could appear to promote nuclear power.
(Addresses Management Challenge #7)

Audit of NRC’s Integrated Personnel Security System

OIG Strategic Goal: Corporate Management

The Integrated Personnel Security System (IPSS) supports NRC’s personnel and
facility security programs, such as badge management, classified visit tracking,
personnel security tracking, and drug testing management. The objective of this
audit was to determine if IPSS meets its required operational capabilities.

Audit results. IPSS does not perform in accordance with its required operational
capabilities. Specifically,

•	 The system is not fully functional.

•	 System data is inaccurate and missing.

•	 System checks to ensure data accuracy and correspondence between related
   data items are inadequate.

•	 Security measures are inadequate or missing.

•	 IPSS lacks a records disposition schedule.

As a result, NRC staff lack IPSS reports to ensure the effectiveness of the security
program, must maintain duplicate systems for drug testing and badge manage-
ment, cannot ensure that reinvestigations are performed in a timely manner, and
cannot determine with confidence when and at what cost the system will be fully
functional. Furthermore, personnel security information is vulnerable to misuse.
System development has gone from $386,850 with an estimated completion of
June 2003 to $640,000 and an estimated completion of December 2006. However,
given previous complications in fulfilling the system design requirements, there
is no assurance that the system will perform satisfactorily even then. (Addresses
Management Challenges #2 and 5)



                                                                                             15
                                                                     October 1, 2005 – March 31, 2006
                 Follow-up Audit of the Nuclear Regulatory Commission’s
                 Decommissioning Fund Program

                 OIG Strategic Goal: Corporate Management

                 NRC provides oversight of licensee decommissioning funding assurance which
                 is intended to provide reasonable assurance that there will be sufficient funds to
                 safely decommission the nuclear reactors. The objectives of this audit were to
                 identify opportunities for program improvement and evaluate implementation
                 of recommendations made in a February 2000 audit report.

                 Audit results. NRC cannot verify that there is reasonable assurance that there
                 will be adequate funds for decommissioning nuclear power plants consistent with
                 prudent business practices. Specifically, decommissioning trust fund balances are
                 not verified and NRC’s investment restrictions are limited in scope and applicability.
                 Further, management action is needed to improve quality control and to reassess
                 the NRC formula used to provide decommissioning funding assurance.

                 As a result, there are (1) $23.3 billion in decommissioning trust funds at risk,
                 (2) increased vulnerabilities to decommissioning funding shortfalls, and
                 (3) potential adverse impacts on the reliability of NRC’s assessment of licensee
                 financial assurance and the amount of funds needed for decommissioning.
                 (Addresses Management Challenges #3 and 6)

                 2005 Nuclear Regulatory Commission’s Safety
                 Culture and Climate Survey

                 OIG Strategic Goal: Corporate Management

                 OIG engaged an independent contractor, International
                 Survey Research, Inc. (ISR), to conduct a survey of NRC’s
                 workforce to assess the agency’s safety culture and climate.
                 The overall objectives were to (1) compare the results from this
                 survey with two previous surveys conducted in 1998 and 2002, and (2) compare
                 the results to Government and national benchmarks. All NRC employees and
                 managers were eligible to participate. The survey concluded with an overall
                 return rate of 70 percent, which is significantly higher than previous survey
                 administrations.

16
NRC OIG Semiannual Report
Survey Results. NRC made substantial progress in improving its safety culture
and climate since the 2002 survey. When compared against ISR’s U.S. National
Norm or the U.S. Research and Development Norm, NRC scores are significantly
above the norm. The historical comparison of results from 2002 to 2005 looks
quite positive, with 16 of 18 categories statistically more favorable than the 2002
results. Communication, which has been a high priority for NRC since the last
survey in 2002, is now the highest scoring category. The NRC Mission and
Strategic Plan also experienced a double-digit improvement. Due to these high
scores, ISR recommended that NRC be compared to the U.S. High Performance
Norm in future surveys.

However, there are opportunities for improvement. Specifically, the agency should
focus on improving the following areas:

•	 Its use of the Differing Professional Opinion Program and employee aware-
   ness of alternate methods to raise concerns.

•	 The organizational focus related to risk-informed and performance-based
   regulation.

•	 Management recognition and respect of the value of human differences.

•	 Employee perception of a lack of knowledge transfer from staff who
   are retiring.

(Addresses Management Challenge #8)

Audit of NRC’s Office of Nuclear Security and Incident
Response (NSIR)

OIG Strategic Goal: Security

NSIR’s mission is to prevent nuclear security incidents and to respond to security
and safety events. The objective of this audit was to evaluate NSIR operations.

Audit results. NSIR has accomplished a great deal since its inception in April 2003.
Along with starting up a new organization, NSIR officials drafted and implemented
numerous security orders, approved security plans, enhanced the force-on-force


                                                                                             17
                                                                     October 1, 2005 – March 31, 2006
                 exercise program, and coordinated with the Department of Homeland Security
                 on a wide variety of security initiatives. Now, however, NSIR needs to focus on
                 refining and formalizing its day-to-day operations to improve its ability to meet
                 its mission. Specifically, NSIR needs to:

                 •	 Improve the management of its workload.

                 •	 Improve its security communication procedures.

                 •	 Fully address concerns with its organizational effectiveness.

                 (Addresses Management Challenges #1, 2, 4, and 8)

                 Audit of the Development of the National Source Tracking System

                 OIG Strategic Goal: Safety

              NRC regulates medical, academic, and industrial uses of radioactive material
              generated by or from a nuclear reactor. NRC regulations define this radioactive
                                 material as byproduct material. This material may be in the
                                 form of a sealed source, which is radioactive material sealed in
 There is widespread use a capsule or closely bonded in solid form. There is widespread
                                 use of byproduct material in the United States and abroad for
 of byproduct material           peaceful purposes. However, this material could also be used
                                 maliciously in a radioactive dispersal device (dirty bomb).
 in the United States            NRC is proposing to build the National Source Tracking System
                                 (NSTS), a Web-based system that will contain cradle-to-grave
 and abroad for peace-           information on high-risk sealed sources. This audit focused
 ful purposes. However, on the development of that system.
 this material could also      Audit Results. As proposed, NSTS may be inadequate because
                               the supporting analysis is based on unreliable data and does
 be used maliciously...        not consider options stated by the International Atomic Energy
                               Agency (IAEA). Specifically, the number of individual sources
                               for the system was estimated at about 3,600; however, the
             actual number of sources could be as high as 36,000. While the IAEA suggested
             minimum levels for tracking radioactive sources, it also suggested tracking



18
NRC OIG Semiannual Report
beyond those levels. However, NRC decided to track only to the minimum level
and did not formally consider options beyond the minimum level. In short, a
comprehensive regulatory analysis is lacking.

As a result, NRC may not account for all byproduct material that represents a
risk to the common defense and security and public health and safety. Such risks
could result in economic, psychological, and physical harm to the United States
and the public. (Addresses Management Challenges #1 and 4)

Audit of the NRC Byproduct Materials License Application and
Review Process

OIG Strategic Goal: Safety

The terrorist attacks of September 11, 2001, heightened the Nation’s concerns that
the loss or theft of radioactive (byproduct) material could lead to malicious use
in a radiological dispersal device (RDD). An RDD, also known as a dirty bomb,
is a conventional explosive that incorporates radioactive material and releases
it on detonation. The major purpose of a dirty bomb is to create terror and
disruption, not to cause death by radiation.

OIG conducted this work as part of a larger effort to determine whether NRC’s
oversight of byproduct material provides reasonable assurance that licensees
account for and control the materials. OIG’s specific objective for this report was
to determine if NRC ensures, through its license application and review process,
that only legitimate entities receive NRC byproduct material licenses.

Audit Results. NRC officials are not aware of the full spectrum of vulnerabilities
in the byproduct material license application and review process. This awareness
is lacking because NRC has not looked inwards at its own business and regulatory
processes. Specifically, the agency has not conducted vulnerability assessments
of all aspects of the materials program, including the license application and
review process.

Consequently, individuals with malevolent intentions could exploit vulnerabilities
in the license application and review process to obtain byproduct material for use
in a dirty bomb. (Addresses Management Challenges #1 and 4).


                                                                                            19
                                                                    October 1, 2005 – March 31, 2006
                 AUDITS IN PROGRESS
                 Review of NRC’s Policy on Public Disclosure of Documents

                 OIG Strategic Goal: Safety

                 The NRC Commission has broad discretion in making policy decisions on matters
                 within its jurisdictional mandate. NRC’s principles of openness, fairness, and
                 due process are embodied in legal, regulatory, and procedural requirements that
                 govern policymaking. NRC has developed a number of procedures to ensure
                 that business is conducted efficiently, effectively, and in accordance with these
                 principles.

                 Policy decisions should be appropriately open to public scrutiny and be based
                 on “reasoned decisionmaking” with a complete record including alternative
                 public and agency staff positions. These decisions should include due process
                 considerations providing for appropriate stakeholder input.

                 The objective of this audit is to determine whether Commission policy formula-
                 tion is consistent with Commission procedures and relevant legal and regulatory
                 requirements. The audit will also review the effectiveness of procedures used by
                 the staff and Commission to ensure that the policy is consistent with providing
                 for common defense and security and to protect the health and safety of the
                 public. This audit is the result of an issue that arose during work associated
                 with the Audit of NRC’s Oversight of Byproduct Materials and Sealed Sources.
                 (Addresses Management Challenge #7)

                 Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities

                 OIG Strategic Goal: Safety

                 NRC licenses, certifies, and inspects commercial facilities that convert uranium
                 ore into fuel used in nuclear power plants. These facilities include gaseous dif-
                 fusion plants, highly enriched uranium fuel fabrication facilities, low enriched
                 uranium fuel fabrication facilities, and one uranium hexafluoride production
                 facility. Each facility possesses large quantities of materials that could pose a
                 significant threat to the public and the environment. In September 1999, an ap-
                 parent criticality accident occurred at a fuel conversion plant in Tokaimura, Japan,

20
NRC OIG Semiannual Report
exposing workers at the plant and members of the public to radiation. Families
in the surrounding area were evacuated while others were advised to take shelter.
In December 2003, there was an accidental release of uranium hexafluoride gas
at a United States plant. The incident caused four people to be hospitalized.

The agency’s regulation of nuclear
fuel cycle facilities seeks to ensure
that licensees adequately protect pub-
lic health and safety, worker safety,
the environment and promote the
common defense and security when
source or special nuclear material is
used during the nuclear fuel produc-
tion cycle.
                                                     Typical Fuel Fabrication Plant
OIG has not previously evaluated this
program, which has been undergoing change in recent years to make it more
risk-informed and performance-based. The objective of this audit is to determine
whether NRC’s regulation of nuclear fuel cycle facilities is effective and efficient.
(Addresses Management Challenge #3)

Audit of the Use of Probabilistic Risk Assessment (PRA)

OIG Strategic Goal: Safety

NRC’s PRA policy statement reflects a commitment to increasing the use of PRA
technology in all regulatory matters to the extent supported by the state of the art
in PRA methods and data, and in a manner that complements the NRC’s deter-
ministic approach and supports NRC’s traditional defense-in-depth philosophy.
Implementation of this policy was expected to improve the regulatory process
in three areas: (1) by incorporating PRA insights in regulatory decisions, (2) by
conserving agency resources, and (3) by reducing unnecessary regulatory
burden on licensees.

The objectives of this audit are to determine whether NRC is (1) using PRA
appropriately in its regulation of licensees given the current state of the art
in technology, and (2) achieving the objectives of its PRA policy statement.
(Addresses Management Challenge #3)

                                                                                             21
                                                                     October 1, 2005 – March 31, 2006
                 Audit of the Nuclear Power Plant License Renewal Program

                 OIG Strategic Goal: Safety

                 The Atomic Energy Act provides for a license period of 40 years for commercial
                 nuclear power plants, but includes provisions for extending the license beyond
                 this initial period. This original 40-year term for reactor licenses was based on
                 economic and antitrust considerations—not on limitations of nuclear technology.
                 Due to this selected time period, however, some structures and components may
                 have been engineered on the basis of an expected 40-year service life. The maxi-
                 mum renewal period of licenses is for an additional 20 years. The first operating
                 license will expire in the year 2006; approximately 10 percent will expire by the
                 end of the year 2010 and more than 40 percent will expire by the year 2015. At
                 this time, there are approximately 14 completed applications, 8 applications under
                 review, and 23 letters of intent to seek license renewal.

                 The agency has accumulated experience with the license renewal process, and
                 the expectation is that a large number of applications will be reviewed over the
                 next decade. The reactors currently in operation are the first generation of power
                 reactors. Operation of these plants beyond 40 years and upwards to 60 years
                 introduces the potential that new aging phenomena could be observed in the
                 next two decades.

                 The objective of this audit is to determine the effectiveness of license renewal
                 reviews using standards existing in various agency documents and regulations.
                 OIG will also review scheduling and resource management. (Addresses Manage-
                 ment Challenges #1 and 3)

                 Audit of the Baseline Security Inspection Program

                 OIG Strategic Goal: Security

                 The baseline inspection program is an integral part of NRC’s reactor oversight
                 process. The program, which provides the routine level of inspection conducted
                 at all power reactor facilities regardless of licensee performance, is designed to
                 detect indications of declining safety performance in key areas. One component
                 of the baseline inspection program focuses on security. However, baseline security


22
NRC OIG Semiannual Report
inspections were on hold during FY 2003 while the agency verified compliance
with April 2003 orders limiting security force working hours, requiring addi-
tional security officer training and qualification, and improving protective plant
strategies. In January 2004, the agency completed training for a new baseline
security and safeguards inspection program and in February, the agency began
conducting inspections under the program.

The objective of this audit is to assess the effectiveness of the baseline security
and safeguards inspection program, including whether the program has adequate
resources to achieve its goals and ensure the physical protection of the Nation’s
nuclear power reactor facilities. (Addresses Management Challenge #1)

Audit of Computer Security at Regions and TTC

OIG Strategic Goal: Security

NRC depends heavily on information system security measures to avoid data
tampering, fraud, inappropriate access to and disclosure of sensitive information,
and disruptions in critical operations. It is NRC’s policy to maintain an automated
information systems security program to provide appropriate administrative,
technical, and physical security measures for the protection of the information
resources.

The objectives of this audit are to evaluate (1) the adequacy of NRC’s informa-
tion security programs and practices in the regions and the Technical Training
Center (TTC), and (2) the effectiveness of the regions’ and TTC’s security control
techniques. (Addresses Management Challenge #2)

Audit of HSPD-12 and the Badge Access System

OIG Strategic Goal: Security

Homeland Security Presidential Directive-12 (HSPD-12) is a mandatory
governmentwide standard created to enhance security, increase efficiency, and
reduce identity fraud of Government employees and contractors. The Office of
Management and Budget has directed Government agencies to begin issuing
credentials to employees and contractors by October 27, 2006, and finish by
October 27, 2007.


                                                                                            23
                                                                    October 1, 2005 – March 31, 2006
                 The photo-identification/key card badge is an integral part of NRC’s physical
                 security program. In addition to containing personal identification information,
                 the badge is a programmable key card for controlling building/area access at
                 headquarters, each of the regional offices, and the TTC. All badge manufactur-
                 ing is done at headquarters, and specific access rights are assigned to each badge
                 via headquarters, regional, and TTC access control systems. Based on the level
                 of rights assigned, employees and contractors place their key cards against card
                 readers to gain entry to various parts of the buildings and, in some cases, during
                 specific times of day. NRC currently uses barium ferrite cards and readers, but
                 plans to transition to a different technology within the next several years because
                 of HSPD-12 requirements.

                 The objectives of this audit are to: 1) determine whether the agency is positioned
                 to meet HSPD-12 requirements, and 2) determine if the badge access system meets
                 its required operational capabilities and provides for the security, availability, and
                 integrity of the system data. (Addresses Management Challenge #5)

                 Evaluation of NRC’s Information Security Practices

                 OIG Strategic Goal: Security

                 The Federal Information Security Management Act (FISMA) was enacted on
                 December 17, 2002. FISMA permanently reauthorized the framework laid out in
                 the Government Information Security Reform Act, which expired in November
                 2002. FISMA outlines the information security management requirements for
                 agencies, including the requirement for an annual review and annual independent
                 assessment by agency Inspectors General. In addition, FISMA includes new provi-
                 sions such as the development of minimum standards for agency systems, aimed
                 at further strengthening the security of the Federal Government information and
                 information systems. The annual assessments provide agencies with the informa-
                 tion needed to determine the effectiveness of overall security programs and to
                 develop strategies and best practices for improving information security.

                 The objectives of this evaluation are to evaluate (1) the adequacy of NRC’s infor-
                 mation security programs and practices for NRC major applications and general
                 support systems of record for FY 2005, (2) the effectiveness of agency information



24
NRC OIG Semiannual Report
security control techniques, and (3) the implementation of the NRC’s corrective
action plan created as a result of the 2004 FISMA program review. (Addresses
Management Challenge #2)

Audit of NRC’s Technical Training Center

OIG Strategic Goal: Security

The NRC’s Office of Human Resources manages training programs conducted at
the TTC in Chattanooga, Tennessee. The TTC, with a budget of $3.6 million and
27 FTE, conducts training programs related to the regulation of nuclear materials
and facilities, including nuclear power plant technology, radiation protection,
risk assessment, and regulatory skills.

OIG is performing an audit of TTC’s operations which includes such areas as
strategic planning, coordination with customers/stakeholders, management
information and analysis, human capital management, process management,
and performance results.

The objective of this audit is to identify opportunities to improve the economy,
efficiency, and/or effectiveness of TTC’s operations in consonance with the
President’s Management Agenda. (Addresses Management Challenge #9)




                                                                                           25
                                                                   October 1, 2005 – March 31, 2006
INVESTIGATIONS
                  During this reporting period, OIG received 154 allegations, initiated 65 investiga-
                  tions and 2 Event Inquiries, and closed 25 cases. In addition, the OIG made 27
                  referrals to NRC management.

                  INVESTIGATIVE CASE SUMMARIES
                  NRC’s Handling of a Preemption Matter

                  OIG Strategic Goal: Safety

                 OIG completed a review of concerns that while Section 274 of the Atomic Energy Act
                 mandated that the regulation of byproduct, source, or special nuclear material was
                 the exclusive jurisdiction of the NRC, certain States have established radiation dose
                 release limits for those materials that differ from the release standard set by NRC.
                 However, even though States were regulating NRC licensees in an area preempted
                                                             by Congress to the Federal Government,
                                                             NRC did not act proactively to address
                                                             these encroachments. OIG became aware
                                                             of this issue as a result of a July 2004 ap-
                                                             plication to NRC from the Governor of
                                                             Minnesota for Agreement State status.
                                                             During a review of the application for
                                                             Agreement State status, NRC staff be-
                                                             came concerned about a 1992 State of
                                                             Minnesota Public Utilities Commission
                                                             order that required an annual radiation
                                                             dose release limit for dry cask storage at a
                                                             nuclear plant in the State which conflicted
  U.S. Operating Commercial Nuclear Power Reactors with the NRC dose limit. During OIG
                                                             review of this matter, OIG found that
                                                             while it has been the longstanding prac-
                 tice of NRC to not become involved in a potential preemption matter unless an
                 NRC licensee initiates court action, NRC has no written policy regarding how the
                 agency addresses preemption issues. In the Atomic Energy Act, Congress intended
                 that regulation of a licensee be exercised by either the NRC Commission or State,
                 but not by both. This intent was echoed by parties interviewed by OIG, including
                 NRC stakeholders and staff, who wanted NRC to more proactively involve itself

26
NRC OIG Semiannual Report
with preemption matters. Those facts, coupled with NRC’s criticism of the State
of Minnesota during its review of the Agreement State Application for an action
taken by the State with NRC’s knowledge over 10 years ago indicated that the
current “hands off ” practice of NRC in this area needed review and possible
revision. OIG recommended that the NRC Commission direct the staff to review
past NRC practices regarding preemption issues and to develop written policy
for Commission approval concerning future actions by NRC in the area of State
regulation of nuclear power plants. (Addresses Management Challenges #1 and 7)

Inappropriate Regulation of NRC Materials Licensee

OIG Strategic Goal: Security

OIG conducted an investigation concerning an allegation that NRC inappropriately
issued a license in January 2001 to a licensee to distribute tritium weapon-sights
that were manufactured overseas. The NRC license required that the licensee be
the initial recipient of the tritium weapon-sights once they arrived from overseas,
to perform an NRC-approved quality control review of the product, and to dis-
tribute the product from its facility located in New York. However, OIG obtained
information that another company that was co-located with the licensee was the
“exclusive distributor” of the weapon-sights in the United States.

OIG determined that prior to receiving the NRC distribution license, the licensee
also needed a possession license for the weapon-sights. Because the licensee
was located in an Agreement State, it had to receive its possession license from
the State of New York. OIG learned that NRC obtained a copy of the possession
license prior to issuing the distribution license to the licensee. OIG visited the
licensee’s distribution facility and found that the licensee was co-located with the
other company; however, the NRC licensee occupied its own separate locked area
with the facility. OIG also found that one of the licensee’s employees was also
employed by the other company and that this employee performed the NRC-
approved quality control review of the weapon-sights on behalf of the licensee and
then transferred the product to the second company for public sale. A law firm
representing the licensee verified that the licensee rented space from the other
company and that the employee was employed by both companies. Consequently,
OIG determined that NRC did appropriately issue the distribution license to the
licensee. (Addresses Management Challenge #1)


                                                                                             27
                                                                     October 1, 2005 – March 31, 2006
                 Failure to Report Contractor Payment Error to OIG Auditors

                 OIG Strategic Goal: Corporate Management

                 OIG conducted an investigation based upon information that the Division of
                 Financial Services (DFS), Office of the Chief Financial Officer, NRC staff sent a
                 payment for over $1 million to the wrong contractor. OIG learned that DFS staff
                 mistakenly issued an electronic payment to an NRC contractor that had an almost
                 identical corporate name as the NRC contractor which should have received the
                 payment. The $1 million was returned to NRC, and NRC later issued a payment
                 which included interest to the proper contractor. The erroneous payment was
                 discovered by the independent auditors contracted by OIG to audit the FY 2005
                 NRC financial statements. DFS management had not reported the error to the
                 independent auditors, despite the possible effect of the erroneous payment upon
                 the financial statement review process. However, when questioned about the
                 erroneous payment, DFS management provided a complete, accurate
                 presentation of the facts and implemented additional internal control measures
                 to the payment process.

                 OIG determined there was no indication that DFS staff intentionally withheld
                 information related to the erroneous payment. OIG independent auditors will
                 address the internal control issues raised by the erroneous payment as a reportable
                 condition within the NRC FY 2005 audit report. (Addresses Management Challenge #6)

                 NRC Oversight of Research Test Reactors 	

                 OIG Strategic Goal: Security

                 The OIG conducted an investigation based on information aired in an October
                 2005 American Broadcasting Company (ABC) television episode of Primetime.
                 The program reported that students were easily able to circumvent security mea-
                 sures and gain access to 12 of 13 university nuclear research and test reactor
                 (RTR) facilities licensed by NRC. The Primetime program concluded that NRC
                 oversight of the security measures in place at RTRs was inadequate.

                 During this investigation, OIG determined that following the events of September
                 11, 2001, NRC instituted increased security measures at RTRs which were based


28
NRC OIG Semiannual Report
on the type and quantity of material onsite. Specifically, NRC sent each RTR
site-specific Interim Compensatory Measures (ICM) for physical security and
requested RTRs to develop implementation plans. NRC continued this oversight
by conducting inspections of RTRs’ implementation plans for the ICMs to ensure
that required security measures have been implemented at each RTR site.

OIG also determined that NRC staff appropriately addressed the specific incidents
of apparent lack of security at RTRs reported in the ABC Primetime episode. OIG
found that NRC first became aware of suspicious visitors to RTRs in June 2005.
After coordination with the Federal Bureau of Investigation, NRC learned that
the students were journalism students hired by ABC. Prior to the October 2005
Primetime episode, NRC obtained limited footage of the Primetime episode and
reviewed the apparent security lapses documented by Primetime. NRC found
one instance that was contrary to the RTRs’ security plans. NRC found that one
of the ABC student reporters momentarily stepped uninvited through a door into
the protected area of the RTR while speaking to the RTR operator. Due to this
unauthorized access to the facility, the RTR was issued a violation; however, the
violation was “non-cited” because the licensee’s actions were sufficient to protect
public health and safety. (Addresses Management Challenge #1)

Computer Security Issue in the Office of Nuclear Regulatory Research

OIG Strategic Goal: Security

OIG conducted an investigation into reports that the operating system on a
standard NRC desktop computer provided to a foreign assignee (FA) had been
replaced without approval and that the computer had been connected to the NRC
computer network in violation of applicable security guidance.

NRC’s FA program dates back to March 1974 and serves as an opportunity for
employees of foreign counterpart agencies to gain firsthand experience with NRC
operations. During their postings at the NRC, FAs are assigned duties similar to
those of NRC employees. These assignments are based on the FA’s background
and experience. FAs are not allowed access to classified or sensitive unclassified
materials during their assignments at NRC.

OIG determined through staff interviews that the FA had likely replaced the
agency standard Windows XP operating system with the Linux operating system

                                                                                            29
                                                                    October 1, 2005 – March 31, 2006
                 to run programs associated with the FA’s assigned duties. As a result, this
                 computer was connected to the NRC computer network in violation of security
                 plans specifically designed for the FA. No indications were found that the FA
                 was provided accounts or access to resources on the NRC computer network.
                 However, the computer assigned to the FA was later reconfigured and reissued
                 to other NRC staff members following the FA’s departure from the agency which
                 prevented a complete review of the computer by OIG. OIG also determined
                 that the implementation of NRC’s computer security policies related to FAs was
                 lax and that staff members’ security awareness concerning FAs was deficient.
                 (Addresses Management Challenge #2)

                 A Conflict of Interest Between an OCFO Manager and a Contractor

                 OIG Strategic Goal: Corporate Management

                 OIG conducted an investigation into an allegation that a manager in NRC’s
                 Office of the Chief Financial Officer (OCFO) golfed at an exclusive, private golf
                 course with partners of a financial management services company and allegedly
                 showed favoritism toward this company while the firm was attempting to obtain
                 a financial management consulting services contract with NRC.

                 OIG determined that the OCFO manager participated in four golf outings with
                 partners of the company at an exclusive private club in Potomac, Maryland during
                 the time this same OCFO manager was responsible for overseeing most aspects
                 of the procurement process, including initiating the procurement request and
                 signing the procurement action, that resulted in the financial management
                 services company being awarded a contract of approximately $1.5 million with
                 NRC. The cost of three of the four golf outings, which included meals and drinks,
                 was charged to the company’s corporate golf course account. Further, OIG
                 found that the OCFO manager had six lunches with a partner of the company
                 at various restaurants in the Washington, DC metropolitan area. The company
                 partner paid for these lunches and was reimbursed for these expenses by the
                 company. (Addresses Management Challenge #6)




30
NRC OIG Semiannual Report
                            STATISTICAL SUMMARY OF
                              OIG ACCOMPLISHMENTS
INVESTIGATIVE STATISTICS
Source of Allegations — October 1, 2005, through March 31, 2006

                          NRC Employee                                   26
                      NRC Management                                20
            Other Government Agency               1
                               Intervenor             3
                          General Public                            19
                                    Media         1
               OIG Investigation/Audit                                                        48
                     Regulated Industry                   8
                             Anonymous                                   27
                         NRC Contractor           1


            Allegations resulting from the Hotline: 39                                  Total: 154



Disposition of Allegations — October 1, 2005, through March 31, 2006

                                    Total                                                    154
               Closed Aministratively                          44
        Referred for OIG Investigation                              64
               Referred for OIG Audit         5
Referred to NRC Management and Staff                      27
           Correlated to Existing Case            12
            Referred to Other Agency         1
            Pending Review or Action          1

                                                                                                      31
                                                                              October 1, 2005 – March 31, 2006
                 STATUS OF INVESTIGATIONS
                 DOJ Referrals . .................................................................................................. 30
                 DOJ Declinations ............................................................................................. 29
                 DOJ Acceptance ................................................................................................. 1
                 Convictions ......................................................................................................... 1
                 Sentencing ........................................................................................................... 1
                 PFCRA Referral .................................................................................................. 1
                 PFCRA Recoveries ..................................................................................$15,000
                 Other Recoveries .......................................................................................$1,938

                 NRC Administrative Actions:
                 	 Terminations and Resignations ................................................................. 3
                 	 Suspensions and Demotions ...................................................................... 2
                 	 Counseling . .................................................................................................. 2
                 	 Other Administrative Action ..................................................................... 4

                 SUMMARY OF INVESTIGATIONS
                 Classification of 		           Opened 	 Closed 	 Cases In
                 Investigations	     Carryover	 Cases	   Cases	 Progress
                 Conflict of Interest	                                           1	                0	               0	              1
                 Internal Fraud	                                                 1	                0	               1	              0
                 External Fraud	                                                 3	                6	               2	              7
                 	False Statements	                                              0	                3	               2	              1
                  	Misuse of Government Property	                                3	               18	               4	             17
                   	Employee Misconduct	                                         2	                6	               4	              4
                    	Management Misconduct	                                      1	                6	               4	              3
                     Technical Allegations — Other	                              5	               11	               7	              9
                     Proactive Initiatives	                                      0	               15	               1	             14
                     	 	 	 Total Investigations	                                16	               65	              25	             56
                     			 Event Inquiries	                                        4	                2	               1	              5




32
NRC OIG Semiannual Report
AUDIT LISTINGS
Internal Program Audit and Special Evaluation Reports

Date	        Title	                                           Audit Number

11/10/05	    Results of the Audit of the United States	       OIG-06-A-01
	            Nuclear Regulatory Commission’s Financial
	            Statements for Fiscal Years 2005 and 2004
11/18/05	    Independent Auditors’ Report on the	             OIG-06-A-02
	            U.S. Nuclear Regulatory Commission’s
	            Special Purpose Financial Statements as of
	            September 30, 2005, and 2004, and for the
	            Years Then Ended
12/02/05	    Independent Accountants’ Report on the	          OIG-06-A-03
	            Application of Agreed-Upon Procedures
	            on the Closing Package Intragovernmental
	            Activity and Balances as of September 30, 2005
12/21/05 	   Review of NRC’s Implementation of the	           OIG-06-A-04
	            Federal Managers’ Financial Integrity Act
	            for Fiscal Year 2005
12/22/05 	   Audit of Controls Over Video News Releases	      OIG-06-A-05
01/09/06	    Audit of NRC’s Integrated Personnel	             OIG-06-A-06
	            Security System
02/06/06	    Follow-up Audit of the Nuclear Regulatory	 OIG-06-A-07
	            Commission’s Decommissioning Fund Program
02/10/06 	   2005 NRC Safety Culture and Climate Survey	      OIG-06-A-08
02/16/06 	   Audit of NRC’s Office of Nuclear Security and	   OIG-06-A-09
	            Incident Response
02/23/06 	   Audit of the Development of the National	        OIG-06-A-10
	            Source Tracking System
03/16/06 	   Audit of the NRC Byproduct Materials	            OIG-06-A-11
	            License Application and Review Process

                                                                                       33
                                                               October 1, 2005 – March 31, 2006
AUDIT TABLES
TABLE I
OIG Reports Containing Questioned Costs1
October 1, 2005 – March 31, 2006

		                                                                                           Questioned	             Unsupported
	        Number of	                                                                             Costs	                  Costs
Reports	  Reports	                                                                            (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           2	                    $43,547	              $3,606,3652

B.	    Which were issued during the
       reporting period	                                                  0	                         0	                      0

	      Subtotal (A + B)	                                                  2	                    $43,547	              $3,606,365

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            1	                     $5,114	                     0

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  2	                    $38,433	              $3,606,365

E.	    For which no management decision was
       made within 6 months of issuance	                                  1	                    $38,433	              $3,606,365

1
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.
The General Services Administration (GSA) is responsible for the management decision on these questioned and unsupported costs.
2

GSA has advised that the decision will be made sometime in 2006.



34
NRC OIG Semiannual Report
TABLE II
OIG Reports Issued with Recommendations That Funds Be Put to Better Use3

	                                                                    Number of	            Dollar Value
Reports	                                                              Reports	              of Funds

A.	    For which no management decision	 0	 0
       had been made by the commencement
       of the reporting period			

B.	    Which were issued during the 	 0	                                                           0
       reporting period		

C.	    For which a management decision was	
       made during the reporting period:		

	       (i) 	 dollar value of recommendations	                             0	                      0
       	      that were agreed to by management

	       (ii) 	dollar value of recommendations 	                            0	                      0
        	 that were not agreed to by management

D.	    For which no management decision had	                               0	                      0
       been made by the end of the reporting
       period

E.	    For which no management decision was	 0	 0
       made within 6 months of issuance				



3
 A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
used more efficiently if NRC management took actions to implement and complete the recommendation,
including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
specifically identified.



                                                                                                                     35
                                                                                     October 1, 2005 – March 31, 2006
        TABLE III
        Recommendations Described in Previous Semiannual Reports on Which
        Corrective Action Has Not Been Completed

        Date	       Report Title	                                                       Number

        05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	                 OIG-03-A-15
        	           Nuclear Materials

        	           Recommendation 1: Conduct periodic inspections to verify that material
        	           licensees comply with material control and accountability (MC&A)
        	           requirements, including, but not limited to, visual inspections of licensees’
        	           to special nuclear material (SNM) inventories and validation of reported
        	           information.

        	           Recommendation 5: Establish an independent NRC system of accounting
        	           for SNM possessed by NRC and Agreement State licensees and ensure that
        	           beginning balances are accurate based on NRC’s physical verification of a
        	           statistical sample of the location and amounts of SNM held by licensees or a
        	           review of a statistical sample of a licensee’s records or some combination
        	           thereof.

        05/24/04	   Review of NRC’s Drug-Free Workplace Plan	                        OIG-04-A-15

        	           Recommendation 3: Obtain U.S. Department of Health and Human Services
        	           approval of the NRC Drug-Free Workplace Plan prior to implementation.

        09/16/04	   Audit of NRC’s Incident Response Program	                        OIG-04-A-20

        	           Recommendation 1: Establish a defined agencywide incident response plan
        	           that includes standards for performance, delineation of the conduct of exer-
        	           cises and drills, and a well-defined objective mechanism for evaluating incident
        	           response during exercises.




36
NRC OIG Semiannual Report
TABLE III (continued)
Recommendations Described in Previous Semiannual Reports on Which
Corrective Action Has Not Been Completed

Date	       Report Title	                                                    Number

09/30/05	   Evaluation of NRC’s Certification and Accreditation Efforts	 OIG-05-A-20

	           Recommendation 1: Develop and implement procedures for monitoring
	           timely initiation of certification and accreditation efforts.

	           Recommendation 2: Develop and implement a mechanism for holding
	           responsible managers and their staff accountable for completing certification
	           and accreditation efforts in a timely manner.




                                                                                            37
                                                                 October 1, 2005 – March 31, 2006
ABBREVIATIONS AND ACRONYMS
                 ASLBP	     Atomic Safety Licensing Board Panel

                 ABC	       American Broadcasting Company

                 DFM	       Division of Financial Management (NRC)

                 DFS	       Division of Financial Services (NRC)

                 FA	        foreign assignee

                 FISMA	     Federal Information Security Management Act

                 FY 	       Fiscal Year

                 HSPD-12	   Homeland Security Presidential Directive-12

                 IAEA	      International Atomic Energy Agency

                 IAM	       Issue Area Monitor

                 ICM	       Interim Compensatory Measures

                 IG	        Inspector General

                 IG Act	    Inspector General Act

                 IPSS	      Integrated Personnel Security System

                 ISR	       International Survey Research, Inc.

                 MD	        Management Directive

                 NRC	       U.S. Nuclear Regulatory Commission

                 NSIR	      Office of Nuclear Security and Incident Response (NRC)

                 NSTS	      National Source Tracking System

                 OCFO	      Office of the Chief Financial Officer (NRC)



38
NRC OIG Semiannual Report
OIG	        Office of the Inspector General (NRC)

PCIE/ECIE	 President’s Council on Integrity and Efficiency/Executive
	          Council on Integrity and Efficiency

PRA	        Probabilistic Risk Assessment

RDD	        radiological dispersal device

RTR	        research and test reactor

SNM	        special nuclear material

TTC	        Technical Training Center (NRC)




                                                                                       39
                                                               October 1, 2005 – March 31, 2006
REPORTING REQUIREMENTS
                 The Inspector General Act of 1978, as amended (1988), specifies reporting require-
                 ments for semiannual reports. This index cross-references those requirements
                 to the applicable pages where they are fulfilled in this report.

                 	
                 CITATION	               REPORTING REQUIREMENTS	                                                PAGE

                 Section 4(a)(2)	        Review of Legislation and Regulations . ...................................7

                 Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .... 13-19, 26-30

                 Section 5(a)(2) 	 Recommendations for Corrective Action ........................13-19

                 Section 5(a)(3) 	 Prior Significant Recommendations
                 	                 Not Yet Completed . ............................................................36-37

                 Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 32

                 Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

                 Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 33

                 Section 5(a)(7) 	 Summary of Significant Reports ...........................13-19, 26-30

                 Section 5(a)(8) 	 Audit Reports — Questioned Costs ...................................... 34

                 Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 35

                 Section 5(a)(10) 	 Audit Reports Issued Before Commencement
                 	                  of the Reporting Period for Which No
                 	                  Management Decision Has Been Made ...........................36-37

                 Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

                 Section 5(a)(12) 	 Significant Management Decisions With
                 	                  Which OIG Disagreed ........................................................ None




40
NRC OIG Semiannual Report
